Report No. D-2009-117           September 29, 2009




    Controls Over Air Combat Command and
 Pacific Air Forces Unliquidated Obligations from
      Department of the Air Force Contracts
        Supporting Contingency Operations
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACC                           Air Combat Command
AFAA                          Air Force Audit Agency
AFALO                         Air Force Accounting Liaison Office
AFB                           Air Force Base
CPTS                          Comptroller Squadron
DFAS                          Defense Finance and Accounting Service
ESP                           Emergency and Special Program
FMR                           Financial Management Regulation
GAFS                          General Accounting and Finance System
GWOT                          Global War on Terror
PACAF                         Pacific Air Forces
SAF/FM                        Office of the Assistant Secretary of the Air Force for
                                Financial Management and Comptroller
SIGIR                         Special Inspector General for Iraq Reconstruction
ULO                           Unliquidated Obligation
                                   INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704



                                                                      September 29, 2009

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE FOR
                 FINANCIAL MANAGEMENT AND COMPTROLLER
               COMMANDER, AIR COMBAT COMMAND
               COMMANDER, PACIFIC AIR FORCES
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, AIR FORCE ACCOUNTING AND FINANCE
                 OFFICE

SUBJECT: Controls Over Air Combat Command and Pacific Air Forces Unliquidated
         Obligations from Department of the Air Force Contracts Supporting
         Contingency Operations (Report No. D-2009-117)


We are providing this report for review and comment. We considered management
comments on a draft of this repmi when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
Assistant Secretary ofthe Air Force for Financial Management and Comptroller
comments were partially responsive. In addition, the Director, Defense Finance and
Accounting Service Limestone, comments were not responsive. Therefore, we request
additional comments on Recommendations A.2 and B by October 29, 2009.

If possible, send a .pdf file containing your comments to audclev@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We changed the title of this report to exclude the term "Global War on Terror" (GWOT).
We replaced it with "contingency operations." Throughout the repoli, we use the term
Global War on Terror because this was the commonly used term during the time ofthe
audit.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868.


                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2009-117 (Project No. D2009-D000FC-0121.000)                      September 29, 2009


                Results in Brief: Controls Over Air Combat
                Command and Pacific Air Forces Unliquidated
                Obligations from Department of the Air Force
                Contracts Supporting Contingency Operations

What We Did                                                What We Recommend
Our audit objective was to determine whether the           The SAF/FM should deobligate approximately
Defense Finance and Accounting Service (DFAS),             $1.2 million on three ULOs; investigate potential
Air Combat Command, Pacific Air Forces, and                Antideficiency Act violations and initiate
the Air Force properly accounted for and                   appropriate administrative actions based on the
deobligated unliquidated obligations (ULOs) on             results of the review; and verify that the
contracts supporting the Global War on Terror.             confirmation statement accurately reports the
This report is the second in a series that addresses       review of ULOs by utilizing the DFAS progress
ULOs on Air Force contracts.                               and management reports and the Air Force major
                                                           commands’ confirmation statements.
What We Found
DFAS Limestone and Japan incorrectly coded                 The Director, DFAS Limestone, should establish a
30 of 115 ULOs as “valid.” DFAS Limestone and              plan to ensure that DFAS Limestone users review
Japan did not adequately review the period of              the period of performance when reviewing and
performance and did not coordinate with                    validating ULOs.
contracting officers or fundholders to resolve the
cause of the unliquidated balances. As a result,           Management Comments and
the Air Force needs to deobligate approximately            Our Response
$1.7 million. Since the audit began, the Air Force         The Deputy Assistant Secretary for Financial
has deobligated over $524,000 (finding A).                 Operations generally agreed. She plans to direct
                                                           the Air Combat Command and Pacific Air Forces
The Office of the Assistant Secretary of the Air           to review the specified delivery orders, and is
Force for Financial Management and Comptroller             reviewing the potential Antideficiency Act
(SAF/FM) failed to identify the fundholders that           violation. The Deputy will evaluate the
did not validate all ULOs during the FY 2009 first         availability of the progress reports. We received
period tri-annual review. It did not support its           the reports prior to the SAF/FM preparing its
confirmation statement either with the progress            confirmation statement.
and management reports or with the subordinate
commands’ review. As a result, the Air Force is            The Director, DFAS Limestone, disagreed with
at an increased risk of losing funds that are not          the recommendation and stated it is the Air
deobligated in a timely manner (finding B).                Force’s responsibility to review the period of
                                                           performance. We believe the DFAS period of
DFAS and Air Force internal controls were not              performance review is necessary because DFAS
effective. DFAS Limestone and Japan did not                Limestone does not provide all ULOs to the Air
provide adequate oversight over the validation of          Force fundholders for further review.
ULOs. In addition, the SAF/FM did not have
adequate controls over the preparation of the Air          We request that the SAF/FM and the Director,
Force confirmation statements.                             DFAS Limestone, reconsider their positions and
                                                           provide additional comments by
                                                           October 29, 2009. Please see the
                                                           recommendations table on the back of this page.


                                                       i
Report No. D-2009-117 (Project No. D2009-D000FC-0121.000)        September 29, 2009

Recommendations Table

Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Assistant Secretary of the Air   B                          A.1.a, A.1.b
Force for Financial Management
and Comptroller

Director, Defense Finance and    A.2
Accounting Service Limestone

Please provide comments by October 29, 2009.




                                          ii
Table of Contents

Introduction                                                                1

      Objective                                                             1
      Background                                                            1
      Review of Internal Controls                                           3

Finding A. Defense Finance and Accounting Service Review of Unliquidated
            Obligations                                                     4

      Management Actions                                                   7
      Recommendations, Management Comments, and Our Response               7

Finding B. Air Force Tri-Annual Review Process                             10

      Recommendation, Management Comments, and Our Response                11

Appendices

      A. Scope and Methodology                                             13
             Prior Coverage                                                15
      B. Coding Unliquidated Obligations                                   17
      C. Tri-Annual Review Process                                         18
      D. Unliquidated Obligations Identified as Inadequately Supported     19

Management Comments

      Deputy Assistant Secretary for Financial Operations                  21
      Defense Finance and Accounting Service Limestone                     23
Introduction
Objective
Our audit objective was to determine whether the Defense Finance and Accounting
Service (DFAS), Air Combat Command (ACC), Pacific Air Forces (PACAF), and the
Air Force properly accounted for and deobligated unliquidated obligations (ULOs) on
contracts supporting the Global War on Terror (GWOT). 1 This report is the second in a
series that addresses ULOs on Department of the Air Force contracts supporting GWOT.
See Appendix A for a discussion of the scope and methodology and prior coverage
related to the objective and Appendix B for a discussion of the coding of ULOs.

Background
Following the terrorist attacks of September 11, 2001, the United States initiated military
operations to combat terrorism in the United States, Iraq, and Afghanistan. Since the
September 11 attacks, Congress has approved approximately $864 billion in
supplemental appropriations, regular appropriations, and continuing resolutions for
war-related costs. The funds were designated for military operations, base security,
reconstruction, foreign aid, embassy costs, and veterans’ health care. As of September
2008, the DOD monthly obligations for GWOT averaged $10.9 billion for Iraq and
$2.7 billion for Afghanistan. The Air Force Center for Engineering and the Environment
has awarded approximately $4 billion of these funds for reconstruction projects in Iraq
and Afghanistan. We reviewed ACC and PACAF ULOs related to 17 Air Force Center
for Engineering and the Environment contracts.

Obligation Process
An obligation is the amount of an order placed, contract awarded, or service received
during an accounting period that requires future payment. It is recorded when an
authorized agent of the Federal Government enters into a legally binding agreement to
purchase specific goods or services. The recorded obligation is reduced by the amount of
payments made as bills are received. The obligated balance still owed is the ULO
balance. When all services or goods have been received and paid for, the obligation is
considered “liquidated,” and any remaining ULO balance should be deobligated. The




1
  Please see the memorandum at the beginning of this report for an explanation of this term and the change
to the title.


                                                    1
funds would then be available for other uses. However, the funds can only be obligated
in the fiscal year(s) for which they are available or used for adjustments to or payments of
existing obligations.

Tri-Annual Review Guidance
The DOD Financial Management Regulation (FMR), volume 3, chapter 8, “Standards for
Recording and Reviewing Commitments and Obligations,” November 2000,
implemented a tri-annual review process that requires fundholders 2 and supporting
accounting offices to monitor obligations and review and validate all ULOs over three
tri-annual review periods for timeliness, accuracy, and completeness. To properly
validate a ULO, DFAS or the fundholder must verify that there is documentary evidence
to support the continued need for the obligation and any remaining funds. In addition,
the DOD FMR requires fundholders to maintain adequate documentation supporting
those reviews for 24 months. The fundholders must also complete a signed confirmation
statement that they reviewed the accuracy and completeness of the recorded amounts.

Fundholders are responsible for confirming to the Office of the Assistant Secretary of the
Air Force for Financial Management and Comptroller (SAF/FM) that they conducted
tri-annual obligation reviews. The Air Force and DFAS personnel share responsibility of
the ULO review. DFAS Denver, in conjunction with the Air Force Accounting and
Finance Office, developed the DFAS Denver 7220.4-G, “Tri-Annual Review Program,”
March 2008 (DFAS Denver 7220.4-G), to implement tri-annual review procedures.
DFAS Denver 7220.4-G requires each of its field sites and Air Force users 3 to complete
portions of the tri-annual review and maintain supporting documentation for 24 months
after the tri-annual review period. These reviews provide the basis for certifying the
percentage of ULOs reviewed and validated on DFAS and Air Force confirmation
statements. These statements must confirm that DFAS or the Air Force fundholders
matched validated obligations to a hard copy or an electronic source document. In the
event that the Air Force fundholder does not provide a confirmation statement supporting
a 100-percent review and validation, the fundholder must provide a full explanation and
document any corrective actions taken.

Tri-Annual Review Process
The Air Force’s tri-annual review process begins when the DFAS tri-annual review
administrator provides the ULO information from the General Accounting and Finance
System (GAFS) 4 to the DFAS users. While DFAS users are reviewing and validating
their assigned lines, the Air Force Accounting Liaison Office (AFALO) receives a file
from DFAS containing the ULOs for the Air Force to review. DFAS users review
contractual obligations, and the Air Force fundholders review miscellaneous obligations.
DFAS users and Air Force fundholders must review and properly code the ULOs to
describe the status of the ULO review. Air Force fundholders must use the standard base


2
  A fundholder is the comptroller/fiscal officer of an organization that is issued a formal subdivision of
funds.
3
  Users are DFAS or Air Force personnel who conduct portions of the tri-annual review.
4
  GAFS is the primary Air Force financial accounting system maintaining official accounting records.


                                                      2
codes established within DFAS Denver 7220.4-G to identify the obligation status.
Obligations can be “valid,” “invalid,” “no longer needed,” or “require additional action.”
See Appendix C for additional information on the DFAS and Air Force responsibilities
for reviewing these ULOs.

Review of Internal Controls
We determined that internal control weaknesses existed in the Air Force tri-annual review
process as defined by DOD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. The SAF/FM did not have adequate internal
controls over the preparation of Air Force confirmation statements. In addition, DFAS
Limestone and DFAS Japan did not perform adequate oversight over the review and
validation of ULOs. Implementing recommendation B will improve the accuracy and
completeness of the Air Force confirmation statement and recommendation A.2 will
improve the DFAS Limestone and Air Force tri-annual review process. We will provide
a copy of the final report to the senior Department of the Air Force and DFAS officials
responsible for internal controls.




                                            3
Finding A. Defense Finance and Accounting
Service Review of Unliquidated Obligations
DFAS Limestone and DFAS Japan incorrectly coded 30 of 115 ULOs as “valid.” DFAS
Limestone and DFAS Japan did not adequately review the period of performance as
required by the DFAS Denver 7220.4-G and did not effectively coordinate with
contracting officers or Air Force fundholders to resolve the cause of the unliquidated
balances. As a result, the Air Force needs to deobligate approximately $1.7 million and
put the funds to better use. Since the audit began, the Air Force has deobligated over
$524,000.

Tri-Annual Review
We chose to review the DFAS Limestone, DFAS Japan, ACC, and PACAF tri-annual
review processes. ACC and PACAF, Air Force major commands, allocated funds to
21 fundholders at 18 Air Force bases (AFBs) for the 115 ULOs. DFAS Limestone and
DFAS Japan were responsible for reviewing the validity of all 115 selected contractual
ULOs in the FY 2009 first period tri-annual review for the ACC and PACAF commands.
The table identifies the DFAS office, the AFB/AFALO, and Air Force fundholder
responsible for the ULOs.

                     DFAS and Air Force Fundholder Locations
       DFAS Location                 AFB/AFALO                     Fundholder
                                                          th
 Japan                        Andersen                  36 Wing
 Japan                        Kadena                    18th Wing
 Japan                        Kunsan                    8th Fighter Wing
 Japan                        Osan                      51st Fighter Wing
 Japan                        Yokota                    374th Airlift Wing
 Limestone                    Beale                     9th Comptroller Squadron
 Limestone                    Davis-Monthan             12th Air Force
 Limestone                    Davis-Monthan             355th Wing
 Limestone                    Eielson                   354th Fighter Wing
 Limestone                    Ellsworth                 28th Comptroller Squadron
 Limestone                    Elmendorf                 3rd Comptroller Squadron
 Limestone                    Elmendorf                 11th Air Force
 Limestone                    Hickam                    Headquarters, PACAF
 Limestone                    Hickam                    15th Air Base Wing
 Limestone                    Holloman                  49th Comptroller Squadron
 Limestone                    Langley                   1st Comptroller Squadron
 Limestone                    Nellis                    99th Comptroller Squadron
 Limestone                    Offutt                    55th Comptroller Squadron
 Limestone                    Seymour-Johnson           4th Comptroller Squadron
 Limestone                    Shaw                      9th Air Force
 Limestone                    Whiteman                  509th Comptroller Squadron


                                           4
DFAS Monitoring of Unliquidated Obligations
DFAS Limestone and DFAS Japan incorrectly coded 30 of 115 ULOs as valid because
they did not follow the guidance in DFAS Denver 7220.4-G. DFAS Denver 7220.4-G
requires a review of the terms and scope of the contract, which includes determining
whether the period of performance for the good or service has expired. The period of
performance is the time required to complete work defined in a statement of work. It can
be revised only through an agreement between a contractor and a contracting officer, who
must issue a formal contract modification. If the period of performance has expired, the
DFAS Denver 7220.4-G also requires coordination to determine whether the good or
service is still needed.

Period of Performance
DFAS Limestone and DFAS Japan did not review the period of performance for
30 ULOs. DFAS Limestone does not perform oversight to ensure that DFAS users
review the period of performance when validating ULOs. The tri-annual review
administrator stated that DFAS Limestone is only responsible for validating the contract
balance and coordinating with the Air Force fundholder on a dormant ULO. The
Director, DFAS Limestone, and the Director, DFAS Japan, should require DFAS users to
follow the DFAS Denver 7220.4-G and review the performance period when validating
ULO balances.

The following two delivery orders demonstrate why DFAS should review the period of
performance of the ULOs. See Appendix D for a complete list of the 30 ULOs and
approximately $1.7 million in associated deobligation amounts.

FA8903-04-D-8676, Delivery Order 0078AA
DFAS Limestone reviewed the ULO balance of $327,608.36 on contract
FA8903-04-D-8676, delivery order 0078, accounting classification reference
number AA, and determined that the ULO was valid without verifying the period of
performance or contacting the fundholder or contracting office. As part of its review,
DFAS Limestone provided documentation indicating that the period of performance had
expired in January 2008. Its review did not include verifying whether additional contract
modifications extending the period of performance existed or communicating with the
fundholder or contracting office to determine whether the Air Force still needed the
funds.

Our review indicated that excess funds were available for deobligation. Specifically, our
review of the contract modifications and coordination with the Air Force fundholder
identified that the period of performance had expired, no additional payments would be
made, and that the funds were no longer needed. An Air Force official stated that the
Defense Contract Management Agency was in the process of issuing a contract
modification to deobligate the remaining funds. However, Defense Contract
Management Agency may delay issuing the modification until the Defense Contract
Audit Agency completes an audit of the delivery order. Based on the results of our audit,




                                            5
the Air Force deobligated $300,000 and should deobligate as much as an additional
$27,608.36.

FA8903-04-D-8681, Delivery Order SK04
DFAS Limestone reviewed the ULO balance of $603,381.39 on contract
FA8903-04-D-8681, delivery order SK04, and determined that the ULO was valid
without verifying the period of performance or contacting the fundholder or contracting
office. As part of its review, DFAS Limestone provided documentation that did not
indicate when the period of performance expired. Its review did not include verifying
whether additional contract modifications extending the period of performance existed or
communicating with the fundholder or contracting office to determine whether the Air
Force still needed the funds.

Our review indicated that the prior-year funds had expired and that excess funds were
available for deobligation. Specifically, our review of the ULO disclosed that Air Force
contracting personnel at the Air Force Civil Engineer Support Agency, Tyndall AFB used
an expired appropriation to pay $412,902.00 for work that was outside the scope of the
original statement of work. In FY 2005, the 49th Comptroller Squadron (CPTS),
Holloman AFB, funded the installation of a fire-suppression system in two buildings at
Holloman AFB. In January 2007, the contracting officer revised the statement of work to
delete the foam suppression improvements and add improvements to another building.
The contracting officer and Holloman AFB officials incorrectly funded the FY 2007
improvements with the original FY 2005 Operation and Maintenance funds. If an
appropriation has expired, the funds are limited to within-scope adjustments to the
original obligation and disbursements related to services provided during the period of
availability. Because Operation and Maintenance funds expire after one year, the
contracting officer should have funded the new work with FY 2007 funds. The
contracting officer’s actions violated section 1502(a), title 31, United States Code. 5
In addition, the deletion of the foam suppression work resulted in excess funds of
$56,763.00 remaining on the delivery order. The contracting officer did not deobligate
these funds and return them to the DOD, but instead kept the funds to pay for future
improvements. In March 2009, the contracting officer stated that a contract modification
would be issued to deobligate the excess funds. However, as of February 2009, no excess
funds remained on the order. The Air Force should have deobligated $412,902.00 for
work outside the scope of the original contract and $56,763.00 for the deletion of the
foam suppression improvements. The Air Force should investigate the potential
Antideficiency Act violations in accordance with the DOD FMR, volume 14, chapter 3,
“Preliminary Reviews of Potential Violations,” February 2008.




5
 Section 1502(a), title 31, United States Code states appropriated funds can only be obligated in the fiscal
year(s) for which they are available or to complete contracts properly made within the appropriation’s
period of availability. It is not available for expenditure beyond the period of availability unless authorized
by law.


                                                      6
Conclusion
The Air Force needs to deobligate approximately $1.7 million of invalid ULO balances
and put the funds to better use. To effectively perform a tri-annual review and identify
possible deobligations or potential violations of laws and regulations, DFAS Limestone,
DFAS Japan, and Air Force fundholders must understand the contract terms on which Air
Force funds are obligated. Communication between DFAS, the Air Force fundholder,
and the contract offices is critical and will ensure that the period of performance is valid
and that requests for deobligation are processed in a timely manner.

Management Actions
After we communicated our concerns about not reviewing the period of performance to
DFAS Japan management, they revised their standard operating procedures to include
this review. If the period of performance has expired, DFAS Japan’s procedures require
DFAS to ask the Air Force about the remaining ULO balance. Because DFAS Japan
provided the revised standard operating procedures to review the period of performance,
we do not plan to make a recommendation to DFAS Japan regarding period of
performance reviews.

After we communicated our concerns about the invalid ULO balances to ACC and
PACAF officials, the Air Force deobligated a portion of the ULO balances. Of the
$1.7 million, the Air Force has taken action to deobligate $524,937.34.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Assistant Secretary of the Air Force for Financial
Management and Comptroller:

       a. Deobligate $1,156,411.65 on three unliquidated obligations that are not
“valid” (see Appendix D for a list of the unliquidated obligations reviewed and
associated deobligation amounts).

Management Comments
The Deputy Assistant Secretary for Financial Operations commented on behalf of the
SAF/FM. The Deputy agreed and plans to direct ACC and PACAF to review the
specified delivery orders and to take any necessary action following the review. The
estimated completion date for this planned action is January 2010.

Our Response
The Deputy Assistant Secretary for Financial Operations comments are responsive,
conform to requirements, and the planned actions meet the intent of the recommendation;
no additional comments are required.




                                             7
      b. Investigate the potential violations of the Antideficiency Act related to
contract FA8903-04-D-8681, delivery order SK04 and initiate appropriate
administrative actions based on the results of the review.

Management Comments
The Deputy Assistant Secretary for Financial Operations commented on behalf of the
SAF/FM. The Deputy agreed and stated a review of the potential Antideficiency Act
violation is ongoing. The Directorate of Accounting, Policy, and Reporting will take any
necessary administrative action following the review. The estimated completion date for
this planned action is December 2009.

Our Response
The Deputy Assistant Secretary for Financial Operations comments are responsive,
conform to requirements, and meet the intent of the recommendation; no additional
comments are required.

A.2. We recommend that the Director, Defense Finance and Accounting Service
Limestone establish a plan to ensure that all Defense Finance and Accounting
Service Limestone users review the period of performance when reviewing and
validating unliquidated obligations.

Management Comments
The Director, DFAS Limestone, disagreed and stated the DOD FMR 7000.14-R
volume 3, chapter 8, does not specifically require tri-annual reviewers to validate the
period of performance. In addition, the Director stated that DFAS Denver 7220.4-G,
chapter C7.1.1.3, cites the review of terms and scope of the contract as the responsibility
of the Financial Management Analysis/Accounting Liaison Office. According to the
Director, the DFAS tri-annual reviewer codes obligations more than 120 days old as “N”
and forwards those obligations to the AFALO for action. He added that the Air Force
fundholders would then be responsible for reviewing the scope of the contract.

Our Response
The Director, DFAS Limestone, comments are not responsive. While not explicitly
requiring the DFAS users to review the period of performance, the DoD FMR and DFAS
Denver 7220.4-G require that ULOs be validated. We believe the validation of ULOs
requires a review of the terms and scope of the contract to include a review of whether
the delivery or performance date has expired. If either of these dates has expired, a ULO
cannot be considered valid without further research. In our sample, DFAS Limestone
deemed 63 of 71 (89 percent) ULOs as valid (Code A) and did not provide them to the
Air Force fundholder for further review. Of these 63, 19 (30 percent) did not have a valid
period of performance. If DFAS Limestone reviewed the period of performance for the
two examples discussed in our report, they would have identified an expired period of
performance. They would then have provided the ULOs to the Air Force for further
research and possibly a timelier deobligation of funds would have occurred.




                                             8
In order to strengthen controls over the tri-annual review process and ensure that ULOs
are identified and deobligated in a timely manner, DFAS Limestone users should review
the period of performance when reviewing and validating ULOs for the Air Force.
During this audit, DFAS Japan immediately revised their standard operating procedures
to include a review of the period of performance to validate ULOs. The addition of this
internal control at DFAS Limestone will ensure that Air Force funds are deobligated as
soon as possible and will ensure consistency across DFAS locations performing ULO
reviews. We are not aware of any ULOs reported as code “N” and code “N” is not listed
as a valid code in DFAS Denver 7220.4-G. DFAS Denver 7220.4-G indicates that code
“M” is to be used for obligations more than 120 days old. We request that the Director,
DFAS Limestone, reconsider its position on the recommendation and provide comments
on the final report.




                                           9
Finding B. Air Force Tri-Annual Review
Process
The SAF/FM failed to identify the fundholders that did not validate all ULOs during the
FY 2009 first period tri-annual review. Specifically, the SAF/FM did not identify that at
least 11.2 percent (12,618 of 112,843) of ULOs were not validated. The SAF/FM did not
support its confirmation statement with either progress and management reports or the
reviews of the subordinate commands. As a result, the Air Force is at an increased risk of
losing funds that are not deobligated in a timely manner.

DFAS Management Reports
Following each tri-annual review period, DFAS has the ability to generate progress and
management reports from the Tri-Annual Review Program database. These reports
provide the status of ULOs reviewed and validated by DFAS and Air Force fundholders.
The SAF/FM, DFAS representatives, Air Force fundholders, and AFALOs can use
reports prepared from this database. Two reports available for their use include the
“Percent Complete by Site Code by Operating Location Code” and the “Total Base Lines
Not Receiving Air Force Response.” According to DFAS Denver 7220.4-G, the “Percent
Complete by Site Code by Operating Location Code” report indicates the percentage of
DFAS ULOs reviewed and validated. The “Total Base Lines Not Receiving Air Force
Response” report indicates the total number of ULOs not reviewed by Air Force
fundholders.

Air Force Tri-Annual Review Confirmation Statement
The SAF/FM failed to identify the fundholders that did not validate at least 11.2 percent
of ULOs during the FY 2009 first period tri-annual review. The SAF/FM prepared a
confirmation statement and provided that statement to the Under Secretary of Defense
(Comptroller)/DOD Chief Financial Officer. The confirmation statement should identify
any fundholder that is unable to complete a 100-percent review and provide an accurate
representation of the ULOs reviewed and validated by the Air Force.

Air Force Review of Management Reports
The SAF/FM failed to identify the fundholders because it did not verify that the DFAS
Progress Status Report and the Tri-Annual Review Results supported its confirmation
statement. The Acting SAF/FM signed a confirmation statement for the FY 2009 first
period tri-annual review and provided that statement to the Under Secretary of Defense
(Comptroller)/DOD Chief Financial Officer. The statement indicated that the Air Force
conducted all obligation reviews. However, this statement did not match the DFAS
Progress Status Report. The report indicated that DFAS Limestone, DFAS Japan, and the
Air Force fundholders did not validate 11.2 percent (12,618 of 112,843) of their ULOs.
In addition, the Tri-Annual Review Results indicated that Air Force fundholders did not
review and validate an additional 471 ULOs. The SAF/FM should use the progress and
management reports when confirming the Air Force tri-annual review.



                                           10
Air Force Confirmation Statements
The SAF/FM also failed to report that six AFBs did not complete the required review.
The Air Force major commands prepare confirmation statements each tri-annual review
period and provide those statements to the Director, Air Force Accounting and Finance
Office, an office within SAF/FM. The PACAF Comptroller indicated in its confirmation
statement that five AFBs did not validate all obligations to source documents. The ACC
Comptroller indicated in its confirmation statement that one AFB did not validate all
ULOs. However, the SAF/FM reported that the Air Force did conduct all obligation
reviews and the FY 2009 first period tri-annual review was complete. The SAF/FM
should use the major commands’ confirmation statements to ensure its confirmation
statement is accurate and complete.

Conclusion
Because of inadequate internal controls over Air Force reporting, the Under Secretary of
Defense (Comptroller)/DOD Chief Financial Officer lacked the necessary information to
make decisions related to the use of DOD funds. Erroneous reporting could increase the
risk that funds are unavailable for other needs because the Air Force may not identify
funds for deobligation in a timely manner. The erroneous reporting could also lead to an
inaccurate conclusion that a continued need exists for all ULO amounts. The SAF/FM
needs to use available progress and management reports and Air Force Major Command
confirmation statements to verify the completion of the ULO review.

Recommendation, Management Comments, and Our
Response
B. We recommend that the Assistant Secretary of the Air Force for Financial
Management and Comptroller verify that the Air Force confirmation statement
accurately reports the review of unliquidated obligations by comparing its
confirmation statement to the Defense Finance and Accounting Service progress and
management reports and to the confirmation statements of the Air Force major
commands.

Management Comments
The Deputy Assistant Secretary for Financial Operations commented on behalf of the
SAF/FM. The Deputy agreed and stated that the Director of the Air Force Accounting
and Finance Office and the Director of DFAS Columbus will evaluate the possibility of
making the progress reports available to the Air Force installations during the tri-annual
review period for comparison before preparing the Air Force confirmation statement.

Our Response
Although the Deputy agreed with the recommendation, we consider the comments
partially responsive. Conducting a feasibility study to determine if the reports are
available to the Air Force installations will not adequately ensure that the SAF/FM
confirmation statement is accurate and complete. We believe that the accessibility of the
reports prior to preparing the SAF/FM confirmation statement is feasible and is a



                                            11
necessary control to ensure accuracy. For this audit, we received the progress and
management reports as early as 3 days and no more than 12 days after the end of the
tri-annual review period. This was more than 30 days prior to the date on the signed
SAF/FM confirmation statement. The SAF/FM would have ample time to consider the
results of the progress and management reports prior to signing their confirmation
statement. Therefore, we request that the SAF/FM reconsider its position on the
recommendation and provide comments on the final report.

In addition, the recommendation required the SAF/FM to compare their confirmation
statement to the confirmation statements of the Air Force major commands. The Deputy
Assistant Secretary for Financial Operations did not address this portion of the
recommendation. Therefore, we request that the SAF/FM provide comments in response
to the final report that will address the comparison of the Air Force major commands and
the SAF/FM confirmation statement.




                                           12
Appendix A. Scope and Methodology
We conducted this performance audit from January 2009 through July 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

The audit focused on Department of the Air Force ULOs for contracts supporting GWOT. The
audit team attempted to identify a listing of GWOT contracts; however, officials at the Office of
the Assistant Secretary of the Air Force for Acquisition indicated that it was not possible to
provide an all-inclusive list of GWOT contracts. The Air Force can identify the contracts’ place
of performance, such as Iraq or Afghanistan, but this would not identify the contracts that
supported GWOT when the work occurred in another location.

In the financial system, an emergency and special program (ESP) code identifies costs associated
with emergency responses or in support of special programs. There are multiple ESP codes,
which identify costs related to GWOT. However, a finance officer at the Office of the Assistant
Secretary of the Air Force for Financial Management and Budget Operations and two prior audit
reports stated that Air Force officials do not always include the required ESP code in their line of
accounting or use the correct ESP code to indicate funds expended in support of GWOT.
Because of the unreliability of the ESP codes to track obligations incurred to support GWOT, we
made the determination to identify contracts that had a place of performance in Iraq or
Afghanistan. We reviewed a Federal Procurement Data System-Next Generation list of the top
100 contracts for FY 2004 through FY 2006 and found that the Department of the Air Force had
awarded 20 of the contracts that were on the top 100 list. Of these 20, the Air Force Center for
Engineering and the Environment at Brooks City Base, Texas, awarded 17. We chose to review
selected major commands with a high dollar value of ULO balances related to the 17 Brooks
City Base contracts.

DFAS Limestone and DFAS Japan provided the FY 2009 first period tri-annual review file,
which contained a list of ULOs. For the 17 contracts awarded by the Air Force Center for
Engineering and the Environment, the tri-annual review file contained 510 ULOs totaling
approximately $193 million. We judgmentally selected ULOs greater than $100,000 and
selected ACC and PACAF as the Major Commands. This sample encompassed 44 ACC ULOs
and 71 PACAF ULOs, valued at approximately $75 million.

To accomplish the audit objectives, we met with the following offices and reviewed the
following data.

      We accessed the Electronic Document Access system to download contracts, orders, and
       modifications related to our sample.

      We communicated with representatives from the following offices to identify the policies
       and procedures in place for management controls over ULOs, document the tri-annual
       review process, and assist in the validation of the 115 ULO balances:
                                                13
               o   SAF/FM
               o   Assistant Secretary of the Air Force for Acquisition
               o   DFAS Limestone
               o   DFAS Japan
               o   DFAS Denver
               o   Air Force Accounting and Finance Office
               o   ACC
               o   PACAF
               o   36th Wing, Andersen AFB
               o   8th Fighter Wing, Kunsan Air Base
               o   51st Fighter Wing, Osan Air Base
               o   374th Airlift Wing, Yokota Air Base
               o   18th Wing, Kadena Air Base
               o   Headquarters PACAF, Hickam AFB
               o   15th Air Base Wing, Hickam AFB
               o   3rd CPTS, Elmendorf AFB
               o   11th Air Force, Elmendorf AFB
               o   354th Fighter Wing, Eielson AFB
               o   1st CPTS, Langley AFB
               o   9th CPTS, Beale AFB
               o   99th CPTS, Nellis AFB
               o   4th CPTS, Seymour-Johnson AFB
               o   9th Air Force, Shaw AFB
               o   49th CPTS, Holloman AFB
               o   355th Wing, Davis-Monthan AFB
               o   12th Air Force, Davis-Monthan AFB
               o   55th CPTS, Offutt AFB
               o   28th CPTS, Ellsworth AFB
               o   509th CPTS, Whiteman AFB.

          We reviewed tri-annual review files, contract delivery orders, contract modifications,
           vouchers, Commander’s Resource Information System  transaction history reports,
           Integrated Accounts Payable System reports, and Mechanization of Contract
           Administration Services reports to determine whether the organization responsible for
           reviewing the 115 ULOs during the tri-annual review followed DOD guidance and
           whether the ULO amounts were valid.

          We reviewed applicable laws and regulations, including the DOD FMR and the DFAS
           Denver 7220.4-G. We reviewed these to determine the procedures for performing
           tri-annual reviews and to identify supporting documentation requirements.





    The Commander’s Resource Information System is an inquiry system; the information is derived from GAFS.

                                                       14
Use of Computer-Processed Data
To perform this audit, we used data from GAFS, Integrated Accounts Payable System,
Mechanization of Contract Administration Services, Electronic Document Access, and the
Federal Procurement Data System. GAFS is the official Air Force financial accounting system.
The Integrated Accounts Payable System and Mechanization of Contract Administration
Services are source systems that provide information on obligation and expenditure amounts.
The Electronic Document Access system stores contracts, contract orders, and contract
modifications. The Federal Procurement Data System collects procurement data. We used the
data to determine the sample of ULOs for our review and to determine validity of the 115 ULO
balances. We compared GAFS data to source system data and source documents such as
contract delivery orders, contract modifications, vouchers, and voucher lists. This assessment
indicated that the data was sufficiently reliable to accurately reflect the recorded obligations and
disbursement amounts for the purpose of our review.

Prior Coverage
During the last 5 years, the DOD Inspector General (IG), Special Inspector General for Iraq
Reconstruction (SIGIR), and the Air Force Audit Agency (AFAA) have issued nine reports
discussing topics related to ULOs and tri-annual reviews. Unrestricted DOD IG reports can be
accessed over the Internet at http://www.dodig.mil/audit/reports. Unrestricted SIGIR reports can
be accessed at http://www.sigir.mil/reports/audit.aspx. Air Force Audit Agency reports can be
accessed from .mil domains over the Internet at
https://wwwd.my.af.mil/afknprod/ASPs/cop/Entry.asp?Filter=OO by those with Common
Access Cards who create user accounts.

DOD IG
DOD IG Report No. D-2009-067, “Controls Over Air Force Materiel Command Unliquidated
Obligations on Department of the Air Force Contracts Supporting the Global War on Terror,”
April 3, 2009

DOD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in Southwest
Asia – Phase III,” November 30, 2007

DOD IG Report No. D-2008-027, “Air Force Use of Global War on Terrorism Supplemental
Funding Provided for Procurement and Research, Development, Test, and Evaluation,”
November 21, 2007

DOD IG Report No. D-2006-085, “Vendor Pay Disbursement Cycle, Air Force General Fund:
Funds Control,” May 15, 2006

SIGIR
SIGIR Report No. 07-011, “Controls Over Unliquidated Obligations in the Iraq Relief and
Reconstruction Fund,” October 23, 2007




                                                 15
AFAA
AFAA Report No. F2008-0007-FC2000, “Foreign Military Sales Unliquidated Obligations,”
April 29, 2008

AFAA Report No. F2008-0001-FB3000, “Air Force General Fund Tri-Annual Review Process,”
April 28, 2008

AFAA Report No. F2005-0011-FB1000, “Global War on Terrorism Funds Management,”
June 20, 2005

AFAA Report No. F2005-0010-FB1000, “Air Force Reserve Unliquidated Obligations,”
June 17, 2005




                                           16
Appendix B. Coding Unliquidated Obligations
Air Force fundholders did not accurately report the number of ULOs that require additional
research on their confirmation statements because the DFAS Denver 7220.4-G contains
conflicting guidance. DFAS Denver 7220.4-G provides conflicting definitions for codes used to
identify obligations as not validated and requiring additional research. Chapter 6 of DFAS
Denver 7220.4-G states that fundholders should use code “R” to identify valid obligations.
However, chapter 7 of that same guidance says to use code “R” to indicate when research on a
ULO is ongoing, and deobligation of the funds cannot occur until research is complete. In
addition, chapter 5 states that fundholders must code ULOs requiring additional research at the
end of the review period with code “W.” Because ULOs requiring additional research can be
coded with either “R” or “W,” fundholders at the 18 AFBs interpreted the DFAS Denver
7220.4-G inconsistently. As a result, 1 fundholder used code “W,” 12 fundholders used code
“R,” and 8 fundholders used yet another code. The inconsistent use of codes did not allow the
Air Force to accurately report the number of ULOs validated. A prior DOD Inspector General
report recommended that DFAS Denver and the Air Force Accounting and Finance Office
establish one code for ULOs requiring additional research.

Management Actions
The Acting Director, Air Force Accounting and Finance Office, and the Acting Deputy Director,
DFAS Columbus, responded to DOD Inspector General Report No. D-2009-067, “Controls Over
Air Force Materiel Command Unliquidated Obligations on Department of the Air Force
Contracts Supporting the Global War on Terror,” April 3, 2009. The Acting Director, Air Force
Accounting and Finance Office, and the Acting Deputy Director, DFAS Columbus, responding
on behalf of the Director, DFAS Denver, agreed to reassess the codes used to identify additional
research for ULOs and modify the DFAS Denver 7220.4-G as necessary by April 2010. Because
plans are already in place to correct this weakness, we do not plan to make any additional
recommendations to the Air Force and DFAS.




                                              17
Appendix C. Tri-Annual Review Process
           DFAS tri-annual review administrator downloads ULO data from
           GAFS and provides the data to DFAS Limestone and DFAS Japan.


          DFAS Limestone and DFAS Japan create two files. DFAS users review
          contractual ULOs, and AFB fundholders review miscellaneous ULOs.


                                                Each AFB AFALO receives the
                                                miscellaneous ULO file and
                                                provides fundholders their
                                                respective ULOs to review.

DFAS Limestone and DFAS Japan users
review contractual ULOs for accuracy            AFB fundholders review the
and validation and begin coding the             miscellaneous ULOs for
ULOs. DFAS Limestone and DFAS                   accuracy and validation and
Japan users code ULOs as valid, out of          code the ULOs. Once the
balance, needing additional supporting          review is complete, the AFALO
documentation, or dormant.                      sends the file back to DFAS
                                                Limestone or DFAS Japan.


After DFAS Limestone and DFAS Japan             AFB fundholders receive
users initially code the ULOs, DFAS             the additional file, review
Limestone and DFAS Japan create an              and validate these ULOs,
additional file of dormant ULOs or ULOs         and the AFALO sends the
requiring additional supporting                 file back to DFAS
documentation. DFAS Limestone and               Limestone or DFAS
DFAS Japan send these to the AFALO              Japan.
for review and validation.


   DFAS Limestone and DFAS Japan receive the ULO files and update the database.


               DFAS Limestone and DFAS Japan send confirmation letters
               to each AFALO certifying their reviews.


                AFB fundholders send confirmation letters to Air Force
                Major Commands certifying their review and validation.


                                          18
Appendix D. Unliquidated Obligations Identified
as Inadequately Supported
 DFAS                 Fundholder                  Document Number                  Deobligation          Management
Operating              Location                                                      Amount               Actions to
Location                                                                                                  Deobligate
                                                                                                            Funds
DFAS             36th Wing,                   FA890304D8669SK33                                   $0                $0
Japan            Andersen AFB
DFAS             36th Wing,                   FA890304D8669SK33                     1,126,268.18 1                    0
Japan            Andersen AFB
DFAS             36th Wing,                   FA890304D86760039AA                                  0                  0
Japan            Andersen AFB
DFAS             36th Wing,                   FA890304D86780066AB                                  0                  0
Japan            Andersen AFB
DFAS             8th Fighter Wing,            FA890304D86700076AA                                  0                  0
Japan            Kunsan AB
DFAS             51st Fighter Wing,           FA890304D86700199AA                                  0                  0
Japan            Osan AB
DFAS             18th Wing,                   FA890304D86700275AA                                  0                  0
Japan            Kadena AB
DFAS             18th Wing,                   FA890304D86700277AA                                  0                  0
Japan            Kadena AB
DFAS             18th Wing,                   FA890304D86700277AA                                  0                  0
Japan            Kadena AB
DFAS             18th Wing,                   FA890304D86700278AA                                  0                  0
Japan            Kadena AB
DFAS             18th Wing,                   FA890304D86700279AA                                  0                  0
Japan            Kadena AB
DFAS             15th Air Base Wing,          FA890304D86700237AA                                  0                  0
Limestone        Hickam AFB
DFAS             15th Air Base Wing,          FA890304D8669SK37                                    0                  0
Limestone        Hickam AFB
DFAS             15th Air Base Wing,          FA890304D86760078AA                       327,608.36               300,000
Limestone        Hickam AFB
DFAS             354th Fighter Wing,          FA890304D8670SK63                                    0                  0
Limestone        Eielson AFB


1
 An Andersen AFB representative stated that the Air Force is working with the contractor to identify the final
billing amount. This amount could be as much as $35,683.

                                                        19
 DFAS                    Fundholder                  Document Number                 Deobligation      Management
Operating                 Location                                                     Amount           Actions to
Location                                                                                                Deobligate
                                                                                                          Funds
DFAS               354th Fighter Wing,          FA890304D8670SK63                                 0                0
Limestone          Eielson AFB
DFAS               354th Fighter Wing,          FA890304D8670SK63                                 0               0
Limestone          Eielson AFB
DFAS               354th Fighter Wing,          FA890304D8670SK63                                 0               0
Limestone          Eielson AFB
DFAS               354th Fighter Wing,          FA890304D86810262AA                               0               0
Limestone          Eielson AFB
DFAS               9th CPTS,                    FA890304D86770039AA                               0               0
Limestone          Beale AFB
DFAS               99th CPTS,                   FA890304D8670SK49                           2,535.11              0
Limestone          Nellis AFB
DFAS               9th Air Force,               FA890304D86690071AA                       224,937.34     224,937.34
Limestone          Shaw AFB
DFAS               9th Air Force,               FA890304D86690072AA                               0               0
Limestone          Shaw AFB
DFAS               9th Air Force,               FA890304D86690072AC                               0               0
Limestone          Shaw AFB
DFAS               9th Air Force,               FA890304D86690072AD                               0               0
Limestone          Shaw AFB
DFAS               9th Air Force,               FA890304D86690103AA                               0               0
Limestone          Shaw AFB
DFAS               9th Air Force,               FA890304D86780143AA                               0               0
Limestone          Shaw AFB
DFAS               9th Air Force,               FA890304D86780143AB                               0               0
Limestone          Shaw AFB
DFAS               49th CPTS,                   FA890304D8681SK04                                 0               0
Limestone          Holloman AFB
DFAS               11th Air Force,              FA890304D86810059AA                               0               0
Limestone          Elmendorf AFB
Total                                           30                                   $1,681,348.99 2    $524,937.34




2
    The Air Force should deobligate approximately $1.7 million and put the funds to better use.

                                                      20
Deputy Assistant Secretary for Financial Operations
Comments




                    Click to add JPEG file




                                   21
Click to add JPEG file




               22
Defense Finance and Accounting Service Limestone
Comments




                  Click to add




                                 23
Click to add JPEG file




               24
